APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Braulio Perez, 19-15083
(January 25, 2021) .................................................................................................... A-1
Judgment imposing sentence .................................................................................... A-2

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 1 of 11

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-15083
Non-Argument Calendar
________________________
D.C. Docket No. 1:19-cr-20003-RAR-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
BRAULIO HILARIO PEREZ,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(January 25, 2021)
Before JORDAN, NEWSOM and ANDERSON, Circuit Judges.
PER CURIAM:

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 2 of 11

Braulio Perez appeals his conviction and his 188-month sentence for
possession of a firearm and ammunition by a convicted felon, in violation of 18
U.S.C. §§ 922(g)(1) and 924(e)(1). He argues that the district court made a variety
of evidentiary errors, that the evidence doesn’t support the jury’s verdict, and that
he doesn’t qualify as an armed career criminal under the Armed Career Criminal
Act. For the reasons set forth below, we affirm.
I
On August 2, 2018, defendant Braulio Perez got into a verbal altercation
with his landlord’s son Julio Hernandez and Hernandez’s guest, during which
Perez flashed a firearm. Hernandez called the police, who came and arrested
Perez. While the police were at the residence, they and Hernandez searched the
yard but couldn’t find a firearm. After the police left, Perez’s dog was left barking
in the yard, and Hernandez took the dog into Perez’s apartment and locked him in
the bathroom. While in the apartment, he saw a firearm. Hernandez’s sister
Lisbeth Perello called 911, and when the police didn’t come, Hernandez called the
police again to say that he had found a firearm in the apartment. The police
subsequently arrived with a search warrant and recovered the firearm from Perez’s
apartment.
After a trial, a jury found Perez guilty of possession of a firearm and
ammunition by a convicted felon in violation of 18 U.S.C. § 922(g)(1) and
2

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 3 of 11

§ 924(e)(1), and the district court sentenced him to 188 months in prison and a
five-year term of supervised release.
II
On appeal, Perez challenges a variety of evidentiary rulings, the sufficiency
of the evidence, and the district court’s finding that Perez qualified as an armed
career criminal. We’ll address each in turn.
A
Perez raises a Fourth Amendment challenge to the district court’s denial of
his motion to suppress the firearm recovered from his apartment. He argues that
Hernandez was an agent of the government when he found the firearm in Perez’s
apartment because: (1) law enforcement encouraged, instructed, and worked with
Hernandez to search for the firearm in the backyard and then failed to instruct him
to stop searching when they left; and (2) Hernandez’s primary motive for entering
the apartment was to assist law enforcement in the prosecution of Perez.
Generally, the “district court’s denial of a motion to suppress is a mixed
question of law and fact.” United States v. Barsoum, 763 F.3d 1321, 1328 (11th
Cir. 2014). Accordingly, we review a district court’s factual findings for clear
error and review the application of law to facts de novo. Id. We construe all facts
in the light most favorable to the government and give substantial deference to the

3

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 4 of 11

factfinder’s credibility determinations. United States v. Lewis, 674 F.3d 1298,
1303 (11th Cir. 2012).
Because the Fourth Amendment proscribes only governmental action, “[a]
search by a private person does not implicate the Fourth Amendment unless he acts
as an instrument or agent of the government.” United States v. Steiger, 318 F.3d
1039, 1045 (11th Cir. 2003). We consider two critical factors when determining
whether a private person was acting as an instrument or agent of the government:
(1) “whether the government knew of and acquiesced in the intrusive conduct”;
and (2) “whether the private actor’s purpose was to assist law enforcement efforts
rather than to further his own ends.” Id. Related to the first factor, we also
consider whether the government “openly encouraged or cooperated in the search.”
See United States v. Ford, 765 F.2d 1088, 1090 (11th Cir. 1985).
Here, the district court didn’t err in denying the motion to suppress because
Hernandez was not acting as the government’s agent when he found the firearm.
Hernandez testified that he went into Perez’s apartment only after law enforcement
left in order to tie up Perez’s dog, which had been left barking in the yard and was
scaring his mother. Moreover, while Hernandez initially searched the backyard for
the firearm with the police, the district court found that the officers hadn’t
instructed or directed Hernandez to go back and look for the firearm in the
apartment. Construing the facts in the light most favorable to the government,
4

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 5 of 11

there is sufficient evidence to support the district court’s determination that law
enforcement had no knowledge of Hernandez’s search of the apartment and that
they did not instruct, direct, or openly encourage Hernandez to enter or search the
apartment. See Steiger, 318 F.3d at 1045. There is also nothing in the record to
indicate that we should disturb the district court’s credibility determinations, as the
testimony of the government’s witnesses are consistent and corroborate one
another. See United States v. Ramirez-Chilel, 289 F.3d 744, 749 (11th Cir. 2002)
(noting that this Court accepts a district court’s credibility determination “unless it
is contrary to the laws of nature, or is so inconsistent or improbable on its face that
no reasonable factfinder could accept it.” (quotation marks omitted)). Therefore,
we affirm the denial of Perez’s motion to suppress.
B
Next, Perez contends that the district court shouldn’t have permitted the
government to introduce body-camera footage in Exhibits 15 and 16 that contained
incendiary statements that he made after he was in custody but prior to being
Mirandized. He argues that the evidence is irrelevant, inadmissible hearsay, is
substantially more prejudicial than probative, and violates his Fifth Amendment
rights.
We review rulings on the admissibility of evidence for abuse of discretion.
United States v. Shabazz, 887 F.3d 1204, 1216 (11th Cir. 2018). When employing
5

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 6 of 11

an abuse-of-discretion standard, we must affirm unless we find that the district
court has made a clear error of judgment or has applied the wrong legal standard.
United States v. Frazier, 387 F.3d 1244, 1259 (11th Cir. 2004) (en banc).
The district court didn’t err by refusing to exclude the body-camera footage.
First, the evidence is relevant. The statements in Exhibit 15 were probative of
Perez’s possession of a firearm and lend credibility to one witness’s testimony that
he had run into the house because he saw that Perez had a firearm. The statements
in Exhibit 16 were probative of Perez’s motive and animosity toward Hernandez.
Second, the statements were not inadmissible hearsay because they were made by
Perez and were therefore admissible under the party-opponent hearsay exception.
See Fed. R. Evid. 801(d)(2)(A). Third, the evidence wasn’t inadmissible under
Rule 403 because exclusion is an extraordinary remedy and the footage here has
probative value which is not substantially outweighed by any overwhelming risk of
prejudice. See Shabazz, 887 F.3d at 1216 (stressing that Rule 403 “should be used
only sparingly” and that we “look at the evidence in a light most favorable to its
admission, maximizing its probative value and minimizing its undue prejudicial
impact.” (quotation marks omitted)).
Finally, the admission of the evidence didn’t violate Perez’s Fifth
Amendment rights. While the statements on the body-camera footage were made
after Perez was in custody, they weren’t the product of interrogation, as they were
6

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 7 of 11

voluntary and spontaneous statements that weren’t made in response to any express
police questioning or its functional equivalent. See United States v. Suggs, 755
F.2d 1538, 1541 (11th Cir. 1985) (“Voluntary incriminating statements, however,
not made in response to an officer's questioning are freely admissible.”).
Accordingly, we affirm the district court’s admission of the body-camera footage.
C
Perez also argues that there was insufficient evidence at trial to convict him
of possession of a firearm because the government failed to prove actual or
constructive possession of the firearm that Hernandez found in his apartment. We
review the sufficiency of the evidence supporting a criminal conviction de novo,
“view[ing] the evidence in the light most favorable to the government, with all
reasonable inferences and credibility choices made in the government’s favor.”
United States v. Frazier, 605 F.3d 1271, 1278 (11th Cir. 2010) (quotation marks
omitted). We will not disturb a guilty verdict unless no trier of fact would have
found guilt beyond a reasonable doubt. United States v. White, 663 F.3d 1207,
1213 (11th Cir. 2011).
To prove a violation of 18 U.S.C § 922(g), the government must show that
(1) the defendant knew he was a convicted felon, (2) the defendant knowingly
possessed a firearm, and (3) the firearm was in or affected interstate commerce.
Rehaif v. United States, 139 S. Ct. 2191, 2195–96 (2019). To demonstrate
7

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 8 of 11

“knowing possession,” the government must prove that the defendant had actual or
constructive possession of a firearm. United States v. Vereen, 920 F.3d 1300, 1310
(11th Cir. 2019). Actual possession requires showing that the defendant had either
physical possession of or personal dominion over the firearm. Id. Constructive
possession requires the government to show that the defendant exercised
“ownership, dominion, or control over the firearm or the premises concealing the
firearm.” Id. (alterations adopted) (quotation marks omitted).
Here, the record contains sufficient evidence that a reasonable factfinder
could have found that Perez knowingly possessed a firearm beyond a reasonable
doubt. Two witnesses testified that Perez threatened to kill Hernandez’s guest and
lifted up his shirt to reveal a firearm and that a firearm was later found in Perez’s
apartment. While there were no fingerprints on the firearm, the government
provided evidence to exclude Hernandez and his guest as owners of the firearm.
“Viewing the evidence in the light most favorable to the Government and resolving
all reasonable inferences and credibility evaluations in favor of the jury's verdict,”
we affirm the jury’s guilty verdict. United States v. Suba, 132 F.3d 662, 675 (11th
Cir. 1998).
D
Perez argues that the district court violated his constitutional right to a fair
trial when it denied his request to introduce a 911 call made by Hernandez’s sister
8

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 9 of 11

from the day of his arrest. He further argues that the evidence was not hearsay
because it was being offered to impeach Hernandez and not for the truth of the
matter asserted.
Even though “the Constitution unquestionably provides a defendant with the
right to be heard,” a defendant “does not have an unfettered right to offer testimony
that is incompetent, privileged, or otherwise inadmissible under standard rules of
evidence.” Frazier, 387 F.3d at 1271 (quotation marks omitted). A defendant’s
right to present a complete defense is subject to reasonable restrictions. United
States v. Scheffer, 523 U.S. 303, 308 (1998). “To the extent that it is ever
admissible, extrinsic evidence to attack credibility is usually subject to the
discretion of the trial judge.” United States v. Corbin, 734 F.2d 643, 655 (11th Cir.
1984) (quotation marks omitted). And “[a]s a general matter, a party’s right to
impugn the character for truthfulness of an opposing party’s witness is limited to
questioning the witness on cross-examination.” Id.
The district court correctly concluded that Perez’s proposed use of the 911
call was improper impeachment and an improper attack on Hernandez’s credibility
because it was extrinsic evidence and because it was offered outside of crossexamination. Perez conceded at trial that the evidence didn’t fall under a hearsay
exception but argued that he wanted to attack the credibility of Hernandez, a
witness who didn’t even make the phone call. Moreover, we cannot say that Perez
9

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 10 of 11

was denied an opportunity to attack Hernandez’s credibility through proper
avenues, because he intentionally chose not to use this evidence during crossexamination and did not attempt to call Perello as a witness during his case in
chief. Because the district court correctly applied the Federal Rules of Evidence to
exclude hearsay, Perez’s constitutional right to put on a complete defense was not
violated. See Scheffer, 523 U.S. at 308 (noting that rules excluding evidence “do
not abridge an accused's right to present a defense so long as they are not arbitrary
or disproportionate to the purposes they are designed to serve” (quotation marks
omitted)).
E
Lastly, Perez challenges the district court’s classification of him as an armed
career criminal, but he concedes that this Court’s precedent is contrary to his
position. We review de novo whether a prior conviction qualifies as a “violent
felony” under the Armed Career Criminal Act (“ACCA”), 18 U.S.C. § 924(e).
United States v. Joyner, 882 F.3d 1369, 1377 (11th Cir. 2018).
Perez argues that both his 1987 Florida conviction for resisting arrest with
violence and 1993 Florida strong-arm robbery conviction are not ACCA-qualifying
offenses. But in United States v. Hill, we held that a prior conviction for resisting
an officer with violence in violation of Fla Stat. § 843.01 categorically qualifies as
a violent felony under the elements clause of the ACCA. 799 F.3d 1318, 1322
10

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 11 of 11

(11th Cir. 2015). And in Welch v. United States, we held that a prior conviction
under Fla. Stat. § 812.13 for strong-arm robbery qualifies as a “violent felony”
under the elements clause of the ACCA. 958 F.3d 1093, 1097 (11th Cir. 2020);
see also Stokeling v. United States, 139 S. Ct. 544, 554–55 (2019). Because “[w]e
are bound by prior panel decisions unless or until we overrule them while sitting en
banc, or they are overruled by the Supreme Court,” we affirm the district court’s
determination that Perez qualified as an armed career criminal. United States v.
Jordan, 635 F.3d 1181, 1189 (11th Cir. 2011).
AFFIRMED.

11

USCA11 Case: 19-15083

Date Filed: 01/25/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

January 25, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-15083-GG
Case Style: USA v. Braulio Perez
District Court Docket No: 1:19-cr-20003-RAR-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Joseph Caruso, GG at (404) 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
Fort Lauderdale Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 19-CR-20003-RUIZ-1(s)
USM Number: 18116-104

BRAULIO HILARIO PEREZ
Counsel for Defendant: Adebunmi Lomax
Counsel for The United States: Robert F. Moore
Court Reporter: Gizella Baan-Proulx

The Defendant was found guilty on Count 1 of the Superseding Indictment.
The Defendant is adjudicated guilty of this offense:
TITLE & SECTION

NATURE OF OFFENSE

18 U.S.C. § 922(g)(1) and 924(e) Felon in possession of a firearm and ammunition

OFFENSE
ENDED

COUNT

08/02/2018

1

The Defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
It is ordered that the Defendant must notify the United States Attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the Defendant must notify the Court and United States
Attorney of material changes in economic circumstances.

Date of Imposition of Sentence: 12/11/2019

____________________________________________
RODOLFO A. RUIZ
UNITED STATES DISTRICT JUDGE

Date:

12/11/2019

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: BRAULIO HILARIO PEREZ
CASE NUMBER: 19-CR-20003-RUIZ-1(s)
IMPRISONMENT
The Defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 188 months. This term consists of 188 months as to Count One.
The Court makes the following recommendations to the Bureau of Prisons:
•

Designation in or as near to the Southern District of Florida as possible.

•

Placement in the Residential Drug Abuse Treatment Program (i.e. 500-hour drug treatment program) at a
designated Bureau of Prisons institution.

The Defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: BRAULIO HILARIO PEREZ
CASE NUMBER: 19-CR-20003-RUIZ-1(s)
SUPERVISED RELEASE
Upon release from imprisonment, the Defendant shall be on supervised release for a term of 5 years.
The Defendant must report to the probation office in the district to which the Defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The Defendant shall not commit another federal, state or local crime.
The Defendant shall not unlawfully possess a controlled substance. The Defendant shall refrain from any unlawful use of a
controlled substance. The Defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the Court.
The Defendant shall cooperate in the collection of DNA as directed by the probation officer.
The Defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the Defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The Defendant must comply with the standard conditions that have been adopted by this Court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The Defendant shall not leave the judicial district without the permission of the Court or probation officer;
2. The Defendant shall report to the probation officer and shall submit a truthful and complete written report within the
first fifteen days of each month;
3. The Defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
4. The Defendant shall support his or her dependents and meet other family responsibilities;
5. The Defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling,
training, or other acceptable reasons;
6. The Defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The Defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or
administer any controlled substance or any paraphernalia related to any controlled substances, except as prescribed
by a physician;
8. The Defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
9. The Defendant shall not associate with any persons engaged in criminal activity and shall not associate with any
person convicted of a felony, unless granted permission to do so by the probation officer;
10. The Defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view of the probation officer;
11. The Defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law
enforcement officer;
12. The Defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
13. As directed by the probation officer, the Defendant shall notify third parties of risks that may be occasioned by the
Defendant’s criminal record or personal history or characteristics and shall permit the probation officer to make such
notifications and to confirm the Defendant’s compliance with such notification requirement.

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: BRAULIO HILARIO PEREZ
CASE NUMBER: 19-CR-20003-RUIZ-1(s)
SPECIAL CONDITIONS OF SUPERVISION
Anger Control / Domestic Violence - The Defendant shall participate in an approved treatment program for anger
control/domestic violence. Participation may include inpatient/outpatient treatment. The Defendant will
contribute to the costs of services rendered (co-payment) based on ability to pay or availability of third party
payment.
Mental Health Treatment - The Defendant shall participate in an approved inpatient/outpatient mental health
treatment program. The Defendant will contribute to the costs of services rendered (co-payment) based on ability
to pay or availability of third party payment.
Permissible Search - The Defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Substance Abuse Treatment - The Defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include inpatient/outpatient
treatment. The Defendant will contribute to the costs of services rendered (co-payment) based on ability to pay or
availability of third party payment.
Unpaid Restitution, Fines, or Special Assessments - If the Defendant has any unpaid amount of restitution, fines,
or special assessments, the Defendant shall notify the probation officer of any material change in the Defendant’s
economic circumstances that might affect the Defendant’s ability to pay.

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: BRAULIO HILARIO PEREZ
CASE NUMBER: 19-CR-20003-RUIZ-1(s)
CRIMINAL MONETARY PENALTIES
The Defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

Fine
0

Restitution
0

If the Defendant makes a partial payment, each payee shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or percentage payment column below. However, pursuant to
18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE
•

TOTAL LOSS*

RESTITUTION ORDERED

Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994, but before April 23, 1996.

**Assessment due immediately unless otherwise ordered by the Court.

Case 1:19-cr-20003-RAR Document 90 Entered on FLSD Docket 12/11/2019 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: BRAULIO HILARIO PEREZ
CASE NUMBER: 19-CR-20003-RUIZ-1(s)
SCHEDULE OF PAYMENTS
Having assessed the Defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of $100.00 due immediately.
Unless the Court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the Clerk of the
Court.
The Defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK’S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including Defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a preliminary order of forfeiture within 3 days.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and Court costs.

